<html>
<title> - SEAN AND DAVID GOLDMAN INTERNATIONAL CHILD ABDUCTION PREVENTION AND RETURN ACT OF 2013</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  SEAN AND DAVID GOLDMAN INTERNATIONAL
                 CHILD ABDUCTION PREVENTION AND RETURN
                              ACT OF 2013

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 3212

                               __________

                            OCTOBER 10, 2013

                               __________

                           Serial No. 113-87

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
85-106                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="593e2936193a2c2a2d313c3529773a363477">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Markup of

H.R. 3212, To ensure compliance with the 1980 Hague Convention on 
  the Civil Aspects of International Child Abduction by countries 
  with which the United States enjoys reciprocal obligations, to 
  establish procedures for the prompt return of children abducted 
  to other countries, and for other purposes.....................     2
  Amendment to H.R. 3212 offered by the Honorable Alan Grayson, a 
    Representative in Congress from the State of Florida.........    52

                                APPENDIX

Markup notice....................................................    56
Markup minutes...................................................    57
Markup summary...................................................    59
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Prepared statement..................    60


                  SEAN AND DAVID GOLDMAN INTERNATIONAL
                     CHILD ABDUCTION PREVENTION AND
                           RETURN ACT OF 2013

                              ----------                              


                       THURSDAY, OCTOBER 10, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:35 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. Pursuant to notice, we meet today to mark 
up the bipartisan bill HR 3212.
    The clerk will report the bill.
    Ms. Marter. H.R. 3212, a bill to ensure compliance with the 
1980 Hague Convention on the Civil Aspects of International 
Child Abduction by countries with which the United States 
enjoys reciprocal obligations, to establish procedures for the 
prompt return of children abducted to other countries, and for 
other purposes.
    [H.R. 3212 follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Royce. Without objection, the bill is considered 
read and open for amendment at any point. And after recognizing 
myself and the ranking member for brief remarks, I will 
recognize the author, Mr. Smith, to explain the bill, and then 
any other members who seek recognition. Without objection, all 
members have 5 legislative days to submit statements for the 
record on any of today's business. And I now recognize myself 
to speak on the bill.
    Every year, more than 1,000 American families are 
confronted with the nightmare of their child being abducted to 
a foreign country by one parent in violation of legal custody 
and access rights, so they are out of reach of the United 
States. They are out of reach of our courts and law 
enforcement. And this unilateral and illegal severing of the 
tie between the child and the left-behind American mother or 
American father is a tragedy. It is one that needs to be 
addressed. Many of us have constituents facing these wrenching 
separations.
    More than 30 years ago, The Hague Convention on the civil 
aspects of child abduction was created to provide a simplified 
consensus mechanism for returning children to their countries 
of habitual residence so that parental rights are determined by 
applicable laws rather than by acts of kidnapping.
    Today, the United States has agreements with 75 Hague 
partner countries which have helped to return many children 
safely home. But unfortunately, agreeing to the Hague 
Convention and complying with the Hague Convention are not the 
same thing and countries often do not take their obligations to 
their commitment there with The Hague seriously enough.
    I am going to let Mr. Smith describe the contents of his 
bill, but I want to thank him for the groundbreaking work he 
has done over the past 4 years in highlighting the unaddressed 
problems of Hague noncompliance and working to craft a 
responsible legislative approach. This bill will strengthen the 
incentives and the tools that the Department of State has to 
address unresolved abduction cases. Its enhanced annual 
reporting will also provide American parents and our judges 
with a clearer picture of actual Hague compliance and the risks 
of non-return associated with travel to certain countries.
    I want to thank Mr. Smith, thank the bipartisan committee 
co-sponsors--Mr. Meadows worked on this, Mr. Kennedy, Mr. 
Holding, Mr. Sherman, Mr. Vargas--for working so cooperatively 
with the ranking member and with me in the process.
    I now recognize the ranking member, Mr. Eliot Engel from 
New York, for his opening remarks.
    Mr. Engel. Thank you very much, Mr. Chairman. I agree with 
everything you just said about the bill. And I would like to 
thank you for scheduling today's markup on H.R. 3212, the Sean 
and David Goldman International Child Abduction Prevention and 
Return Act.
    There are few crimes more heart wrenching than child 
abduction. And as a parent, I cannot even imagine the anguish 
that someone goes through by having a child abducted by their 
partner and taken to another country. These left-behind parents 
have little leverage to have their children returned home. They 
are often at the mercy of foreign courts with different 
cultural conceptions of custody and arbitrary determinations 
for what is or is not in the child's best interest.
    Unfortunately, there is an increasing number of 
international parental child abductions where one parent leaves 
the United States and either wrongfully removes or retains the 
child abroad. According to the State Department, there were 
1,144 children abducted from a parent in the United States and 
taken abroad in the year 2012 alone. The most effective tool 
the United States has to help return abducted children is the 
1980 Hague Convention on the civil aspects of international 
child abduction. This treaty creates a global standard and 
requires signatories to return abducted children to the country 
of the child's habitual residence for a custody hearing.
    Regrettably, as you mentioned, Mr. Chairman, there are 
significant gaps in the Hague Treaty framework. Forty percent 
of abducted children are taken to non-Hague countries, leaving 
those parents with even fewer options and the Treaty has no 
enforcement mechanisms.
    The purpose of the legislation before us today is to fill 
those gaps. H.R. 3212 encourages the State Department to enter 
into MOUs with these countries to help bring them in line with 
Hague standards and return children home. It also gives the 
President the power to sanction countries that demonstrate 
persistent failure in returning abducted children.
    In addition, my legislation will help us monitor progress 
in achieving greater compliance worldwide with The Hague 
standards by requiring reports on child abduction cases and our 
U.S. Government efforts to encourage that compliance.
    Sadly, international parental child abduction is an under 
reported and often overlooked crime which dramatically and 
traumatically impacts the lives of the children and parents 
involved. We need to send a message to the world that we take 
Hague compliance in returning abducted children back to the 
United States very seriously. This bill represents an important 
step forward in empowering the President and the State 
Department to enforce the Hague Convention and to bring more 
countries in line with its standards.
    I would like to thank Mr. Smith for his tireless efforts on 
this important issue. I have spoken with him about this for 
many, many years and know the hard work that he has put into it 
and his heartfelt feelings about this. I want to thank other 
members who contributed as well. I want to single out Mr. 
Grayson for his positive contribution to the bill.
    So Mr. Chairman, I support the measure and the amendment 
before us and encourage all members to vote in support of its 
passage. I yield back.
    Chairman Royce. Thank you, Mr. Engel. We now go to the 
author of the bill of H.R. 3212, Subcommittee Chairman Chris 
Smith.
    Mr. Smith of New Jersey. Thank you very much and I want to 
thank you profoundly for bringing this legislation. At a time 
when the government is shut down, we are alive and well and 
running in the typically bipartisan way that you run this 
committee and you and Ranking Member Engel are to be commended. 
And I thank you especially for bringing this bill to the full 
committee for consideration.
    I also want to thank all the members who have cosponsored 
and I especially want to thank a number of the family members 
who are here today and I will say a brief word about that in a 
moment.
    We are here this morning to mark up H.R. 3212, the Sean and 
David Goldman International Child Abduction Prevention and 
Return Act of 2013. This legislation mirrors legislation that I 
wrote back in 2000 called the Trafficking Victims Protection 
Act which was designed to combat the hideous practice of human 
trafficking and to do so by holding countries to account. It 
also mirrors legislation authored by Congressman Frank Wolf, 
the International Religious Freedom Act of 1998, that in like 
manner holds countries to account for egregious behavior as it 
relates to human rights. And of course, here we are talking 
about child abduction.
    As our members are aware, this bill enjoys strong 
bipartisan support. Almost every Member of the House and many 
of us do have constituents that have come forward and asked for 
our help, are affected by the tragedy of international parental 
child abduction.
    Child abduction occurs when one parent takes a child from 
his or her home in the United States to another country or 
wrongfully retains a child abroad in violation of the other 
parent's custody rights, often with the intent of depriving the 
other parent of access to the child. The damage to the child in 
the left-behind parents is incalculable and too often lifelong. 
The children are at risk of serious emotional and psychological 
problems and many experience anxiety, eating problems, 
nightmares, mood swings, sleep disturbances, aggressive 
behavior, resentment, guilt, and fearfulness.
    Parental child abduction is child abuse. These victims are 
American citizens who need the help of their Government in a 
more robust way, especially when normal legal processes are 
unavailable or fail. It was David Goldman's unrelenting almost 
6-year effort to bring his son, Sean, home from Brazil that has 
helped to highlight the epidemic of international parental 
child abduction. David, like other equally heroic parents, was 
absolutely tenacious. He is here in this room and I thank him 
for the leadership that he has provided that has been 
extraordinary. But he was absolutely tenacious, but suffered 
setbacks and a numbing pain along the way. Right up until the 
very week before Sean was released all of us were wondering, 
will it happen or will it not?
    Well, according to the U.S. Department of State between the 
years 2000 and 2008 and 2012, bereaved left-behind parents like 
David reported over 4,800 abduction cases involving more than 
7,000 American children. I had the privilege of joining David 
in his fight to return Sean and experience firsthand the 
maddening obstacles encountered by left-behind parents, even in 
countries that have signed the Hague Convention and the civil 
aspects of international child abduction. Foreign courts and 
endless appeals to run out the clock, exploitation of the 
safeguards in the Convention, and prejudice against foreigners 
all block the way to bringing American children home. Too many 
families have been waiting too long for the return of their 
children.
    I see in the audience Captain Paul Toland who has not been 
able to see his daughter Erica since 2004, despite the fact 
that he is her only living parent. So many other left-behind 
parents are here today, many of whom like Captain Toland long 
to be reunited with their children.
    In the room, too, and I didn't know he would be here, is a 
man, Mr. Feimster, the grandfather. His daughter's children 
were kidnapped. And this is a case, frankly, where the State 
Department and the Foreign Service officers involved did an 
extraordinary case and effectuated the return of his two 
granddaughters who were kidnapped to Tunisia. So 
congratulations. At times the system does work, but it is still 
broken in many ways.
    I also see in the audience, Mr. Hermer, whose daughter is 
being held in the United Kingdom. Mr. Braden, I believe will be 
here, Mr. Elias, Mr. Burns, and as I said, Mr. Feimster.
    Michael Elias, just one brief example, a combat injured, 
Iraqi Veteran, testified at one of my four hearings on 
abduction and I quote him in pertinent part: ``As a father who 
no longer has his children to hold in his arms, I cannot deal 
with the sorrows, so I try my best to stay strong and keep 
fighting for their return. All of my hopes and dreams for their 
future now lie in the hands of others.'' He continued: ``I am 
begging our Government to help not only my family, but hundreds 
of other heart-broken families as well to demand the return of 
American children.''
    Today is our chance to help. H.R. 3212 backs with penalties 
our demands for adherence to international obligations and 
makes clear to friends and foes alike that our children are our 
top priority. As stated in the legislation, it has several 
purposes. First, we want to protect children whose habitual 
residence in the U.S. from the harmful effects of abduction and 
to assist left-behind parents to have access to their abducted 
children in a safe and predictable manner while in abduction 
and case is pending.
    We want to provide left-behind parents their advocates and 
judges the information they need to enhance the resolution of 
abduction cases to establish legal procedures. In addition, the 
purpose of the bill would be to establish measured, effective, 
and predictable actions to be undertaken by the President on 
behalf of abducted American children and to promote an 
international consensus that is in the interest of the children 
to have any issues related to their care and custody determined 
in the country of their habitual residence.
    And finally, the bill would encourage the effective 
limitation of international mechanisms, particularly those 
established pursuant to The Hague Convention to achieve 
reciprocity in the resolution of abductions and to protect 
children from harmful effects of abduction. The Goldman Act 
gives the President important tools and I have listed them in 
my comments and I would ask members to take a look at those. 
But they are derived from previous laws including IRFA and the 
Trafficking Victims Protection Act so that there will be real 
clout behind our insistence that these children be brought 
back.
    So without objection, I would ask that my full comments be 
made part of the record and again I thank my colleagues.
    Chairman Royce. I thank you, Mr. Smith. I think the full 
statement being in the record is a good concept because we face 
a pending conference here. I would remind the other members if 
you have a statement to make you can certainly put it in the 
record and I would ask if any other members wish to speak at 
this time on the underlying bill before we recognize Mr. 
Grayson, to offer an amendment.
    Yes, Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman. I want to thank 
Ranking Member Engel and particularly Mr. Smith for your years 
of leadership on this and clearly the passion and leadership 
that you have shown to make this day become a reality.
    I speak today in support of this bill and in particular on 
behalf of one of my constituents, Colin Bower, a devoted father 
from Newton, Massachusetts, who has tireless sought the return 
of his two abducted children from Egypt. Mr. Bower has worked 
to bring his children, Noor and Ramsay, home to the United 
States since their mother unexpectedly took them out of school 
in 2009, boarded a plane just hours later with tickets paid in 
cash, never to return. Despite a U.S. court ruling that gave 
full custody to Colin and a subsequent Egyptian court order 
granting him the right to visit his children, Colin has 
continually been denied the opportunity to see his boys and has 
not spoken to them in nearly 2 years.
    I offer my comments because Colin is not alone. The 
legislation before us would bolster international mechanisms 
critical to resolving international abduction cases. It will 
provide left-behind parents with a framework about how to work 
through the government to gain information about their cases 
and elevate this issue publicly to draw the necessary attention 
to the children and families that are torn apart.
    I thank Congressman Smith for all of your work, once again, 
and for offering this bill, and I ask my colleagues to support 
it.
    With that, Mr. Chairman, I yield back.
    Chairman Royce. I thank the gentleman, and we go to Ms. 
Ros-Lehtinen for her statement.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I would 
like to thank our hero, Chris Smith, for bringing this 
important legislation for markup today and I will continue to 
battle with him on behalf of children who have been victims of 
transnational abduction and for the left-behind parents who 
feel helpless, and all too often hopeless, that their 
government won't use whatever tools are available to reunite 
them with their children. But I would also like to urge that we 
do not overlook one of the most difficult issues in child 
abduction law. In many instances, a parent will flee with their 
child or children internationally in order to escape domestic 
violence. There is no simple solution for this issue and it is 
indeed very complex and sensitive. Too often, current U.S. law 
addressing international child abduction actually facilitates 
domestic violence and child abuse by forcing the return of a 
child despite the recognized risks to the child or parent. That 
is why I am planning to introduce legislation in the next few 
weeks to amend the Federal law that would eliminate these 
unintended consequences. And I encourage my colleagues to join 
me in this effort as well as helping Mr. Smith pass this 
important bill. It is my hope that with these bills and further 
corrective measures to international child abduction laws, we 
will be able to resolve these issues so that the interest of 
the children and the left-behind parents and those who fear 
domestic violence and abuse can be protected. And I will put my 
statement for the record, Mr. Chairman. Thank you, Mr. Smith.
    Chairman Royce. Thank you, Ms. Ros-Lehtinen. Any other 
members? Mr. Poe for 10 seconds.
    Mr. Poe. Thank you, Mr. Chairman. I agree with this 
legislation. For a long time, one of my constituents, Marty 
Pate, we have been working with him. His daughter was stolen by 
his ex-wife and taken to Brazil when she was 6 years old 
without legal permission. I would like to introduce my entire 
statement into the record.
    Chairman Royce. Without objection.
    Mr. Chabot. Mr. Chairman?
    Chairman Royce. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. I will be very brief. 
I had a constituent, Tom Sylvester, whose daughter Carina was 
taken to Austria. This gentleman did everything right, fought 
it for years and years, went all the way up to the Supreme 
Court of Austria and with decisions in his favor. We met with 
Colin Powell and with Madeleine Albright down at the State 
Department. He did everything right. Spent hundreds of 
thousands of dollars on legal fees, never got his daughter 
back. Your heart just goes out to these people that have to go 
through this horrific trauma and I want to thank Mr. Goldman 
for fighting and thank Congressman Chairman Smith for taking 
this on as well. These are just heart-breaking cases. It got so 
frustrating, I literally would have said let us send the 
Marines in to bring these kids back and so thank you for 
introducing this legislation. I hope it does some good. Thank 
you.
    Chairman Royce. Thank you. Mr. Grayson, do you have an 
amendment at the desk?
    Mr. Grayson. I do, Mr. Chairman.
    Chairman Royce. The clerk will report the amendment.
    Ms. Marter. Amendment to H.R. 3212 offered by Mr. Grayson 
of Florida. In Section 101(b)(2)(g) insert----
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Royce. Without objection, the amendment is 
considered read and Mr. Grayson is recognized to explain his 
amendment.
    Mr. Grayson. Mr. Chairman, I understand that time is short 
and many of you have an engagement in 3 minutes, so I will 
submit my statement for the record.
    Chairman Royce. Mr. Grayson, if I could just commend you 
for working with the author and working with the committee and 
the ranking member on your amendment. I think it improves the 
bill.
    Are there any further requests for recognition?
    Mr. Connolly. Mr. Chairman?
    Chairman Royce. Yes, Mr. Connolly.
    Mr. Connolly. I know we are in a rush. I have no idea what 
the Grayson amendment is we are being asked to----
    Chairman Royce. I am going to ask Mr. Grayson to explain 
his amendment at this time. It is in your packet.
    Mr. Grayson, please explain the amendment.
    Mr. Grayson. Thank you, Mr. Chairman. My amendment 
accomplishes three things. First, it strengthens the reporting 
requirements in the Annual Report on International Child 
Abduction. Second, it provides for congressional notification 
for each existing, unresolved, international child abduction 
case in each member's district, not merely the newly reported 
abductions as currently required by the un-amended bill. And 
third, it provides the President with discretion to withhold 
economic support assistance to foreign governments unwilling to 
assist in resolving child abduction case.
    Mr. Connolly. I thank the chair and I thank my colleague.
    Chairman Royce. Any further comments or questions on the 
Grayson amendment or requests to speak? Hearing no further 
requests for recognition, the question now occurs on the 
amendment offered by Mr. Grayson.
    All those in favor say aye.
    [Chorus of Ayes.]
    All those opposed, no. In the opinion of the Chair, the 
ayes have it and the amendment is agreed to.
    Are there any other amendments? Hearing no further 
amendments to this measure, the question now occurs on agreeing 
to H.R. 3212, as amended. All those in favor, say aye.
    [Chorus of Ayes.]
    All those opposed, no. In the opinion of the Chair, the 
ayes have it and the bill, as amended, is agreed to. And 
without objection, this measure as amended, is agreed to. It is 
ordered favorably reported and will be reported as a single 
amendment in the nature of a substitute. And also, without 
objection, staff is directed to make technical and conforming 
changes and the Chairman is authorized to seek House 
consideration of 3212 under suspension of the rules.
    And again, I want to thank Ranking Member Engel, Mr. Smith, 
and all of our committee members for their contribution to this 
legislation and their assistance with today's markup. The 
committee is adjourned.
    [Whereupon, at 9:57 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<Hoarfrost><brit-pound><acctof><acctof>a<natural><variable>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   <F-dash>\<Hoarfrost><F-dash><Register> <Register><pound>s<ellipse>
                  \<box><star>t<careof><Rx><box><Rx>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
